           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       SEATTLE MENTAL HEALTH
    INSTITUTE - AN ORGANIZATIONAL
    REPRESENTATIVE PAYEE FOR THE
   SOCIAL SECURITY ADMINISTRATION

   October 2004    A-09-04-14015




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   October 26, 2004                                                                Refer To:

To:     Carl L. Rabun
        Regional Commissioner
         Seattle

From:   Assistant Inspector General
         for Audit

Subject: Seattle Mental Health Institute – An Organizational Representative Payee
        for the Social Security Administration (A-09-04-14015)

        OBJECTIVE

        Our objectives were to determine whether Seattle Mental Health Institute (SMHI)
        (1) had effective safeguards over the receipt and disbursement of Social Security
        benefits and (2) ensured Social Security benefits were used and accounted for in
        accordance with the Social Security Administration’s (SSA) policies and procedures.

        BACKGROUND

        Some individuals cannot manage or direct the management of their finances because
        of their youth or mental and/or physical impairments. Congress granted SSA the
        authority to appoint representative payees to receive and manage these beneficiaries’1
        payments.2 A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance
        beneficiaries or Supplemental Security Income (SSI) recipients when representative
        payments would serve the individual’s interests. Representative payees are responsible
        for using benefits in the beneficiary’s best interests.

        SMHI has offered behavioral health services to the Metropolitan Seattle and
        King County community since 1967. From June 1, 2002 to May 31, 2003, SMHI
        received approximately $3 million in Social Security benefits on behalf of
        574 beneficiaries. During our audit, SMHI had four employees who were responsible
        for the accounting of beneficiaries’ receipts and disbursements.


        1
          We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
        Insurance beneficiaries and SSI recipients.
        2
            42 U.S.C. §§ 405(j) and 1383(a)(2) (2001).
Page 2 – Carl L. Rabun


RESULTS OF REVIEW
We could not determine whether SMHI properly used benefits for the beneficiaries’ use
and benefit. Our audit showed that SMHI neither (1) had effective safeguards over the
disbursement of Social Security benefits nor (2) ensured Social Security benefits were
used and accounted for in accordance with SSA’s policies and procedures.

SMHI did not have an effective system of internal controls to safeguard an estimated
$3 million in annual benefits received and disbursed. Specifically, SMHI did not

•         maintain supporting documentation for 84 percent of the beneficiary transactions we
          reviewed;

•         provide evidence that an estimated $40,054 in beneficiary funds issued to SMHI
          employees was spent on behalf of the beneficiaries;

•         consistently report to SSA in a timely fashion when beneficiaries were incarcerated,
          resulting in $12,668 in overpayments;

•         report work activity to SSA for two SSI recipients;

•         identify SSI recipients with excess resources, resulting in $7,153 in overpayments;
          and

•         return $3,421 in conserved funds to SSA for beneficiaries no longer in its care.

These conditions existed because SMHI management did not place enough priority on
its representative payee program and did not ensure its employees were properly
trained in SMHI’s responsibilities as a representative payee.

SMHI Did Not Have Adequate Internal Controls to Safeguard Beneficiaries’ Funds

SSA’s Guide for Organizational Representative Payees requires that a representative
payee establish an accounting system to track how much money is received, how much
is spent, and the balance saved for each beneficiary.3 SSA also requires that the
representative payee’s financial records and supporting documentation of beneficiary
receipts and expenses be available upon request.4 To meet its responsibilities as a
representative payee, SMHI should have established appropriate internal controls to




3
    SSA, Guide for Organizational Representative Payees, p. 29.
4
    Id.
Page 3 – Carl L. Rabun


ensure the accuracy, completeness, and proper authorization of transactions related to
the disbursement of beneficiaries’ funds.5

Our audit of SMHI’s disbursements disclosed that SMHI did not follow basic accounting
practices to protect beneficiary funds. Specifically, SMHI did not ensure that original
invoices were examined before signing disbursement checks, reconcile bank
statements in a timely manner, or use pre-numbered checks. Most significantly, we
found that SMHI did not retain supporting documentation for beneficiary expenses, and
SMHI often issued checks payable to SMHI employees from beneficiaries’ funds.

Lack of Supporting Documentation – Our tests of SMHI’s financial records for a sample
of 50 beneficiaries showed that SMHI did not retain supporting documentation for
63 (84 percent) of the 75 transactions we selected for review. Of the 12 transactions for
which SMHI had supporting documentation, 11 were either credits, checks sent to State
facilities, or funds returned to SSA. Generally, SMHI was unable to provide any
supporting documentation for beneficiary disbursements, including but not limited to,
rent, utilities, clothing, and food. Consequently, we were unable to determine whether
funds were used for the beneficiaries. This occurred because SMHI neither had a
formal retention policy nor ensured supporting documentation was verified or retained.

SMHI Issued Payments to Employees - SMHI’s policies and procedures state, “Checks
may not be written to cash or to the client’s case manager except for loan repayment or
in extenuating circumstances, the only being that the client is incarcerated or
hospitalized. Chief Financial Officer (CFO) approval is required on all unusual check
requests.”6

We identified 31 checks, totaling $13,838, that were written to 5 SMHI employees. Of
the $13,838, we determined that $3,489 was written on behalf of the 50 beneficiaries in
our sample. SMHI was unable to provide evidence the money was used for the
beneficiaries’ needs. In addition, SMHI was unable to provide evidence of CFO
approval or evidence of a loan or extenuating circumstance. An SMHI official agreed
the checks were not in compliance with its policies and procedures.

We believe the checks improperly written to SMHI employees in the amount of
$3,489 for the 50 sampled beneficiaries are representative of additional checks written
to SMHI employees for all 574 beneficiaries in SMHI’s care. Therefore, we estimate
that approximately $40,054 may have been improperly written to SMHI employees.7



5
 Internal Control – Integrated Framework of the Committee of Sponsoring Organizations of the Treadway
Commission (1992).
6
    Seattle Mental Health Protective Payee Procedures (December 31, 2002).
7
  The estimate is based on the checks totaling $3,489 that were written to SMHI employees on behalf of
the 50 beneficiaries in our sample. The average error per beneficiary, $69.78, was multiplied by the
population of 574 to estimate the total amount improperly written to SMHI personnel.
Page 4 – Carl L. Rabun


SMHI Did Not Adequately Monitor and Report to SSA Changes in Beneficiaries’
Circumstances that Could Have Affected Their Eligibility

Representative payees must notify SSA of any event that affects the beneficiary’s
entitlement or benefit payments amount.8 This includes instances when beneficiaries
are incarcerated and changes in income or resources.9 We found that SMHI did not
consistently report these changes to SSA because SMHI staff did not understand their
reporting responsibilities.

Incarcerated Beneficiaries - SMHI did not consistently report to SSA when beneficiaries
were incarcerated. We determined that 133 (23 percent) of the 574 beneficiaries for
whom SMHI received benefits had a record on SSA’s prisoner update processing
system (PUPS).10 Of these, we reviewed 49 cases that consisted of beneficiaries who
were incarcerated during our audit period. We determined that nine individuals received
benefit payments totaling $12,668 that should have been suspended because of
incarceration. Although SMHI did not report the incarcerations, SSA detected and
established overpayments in eight of the nine cases.

Unreported Work and Earnings - Our review disclosed that SMHI did not always report
to SSA when beneficiaries had work and earnings that could have affected their
entitlement to benefits. We found that two SSI recipients had unreported work and
earnings. In one circumstance, the recipient’s case folder contained a medical history
completed by the Case Manager that stated, “Not currently reporting income to social
security against Case Manager advice.” In the second circumstance, a treatment plan
review completed by the Case Manager stated that the client “has been doing odd jobs.”
We referred these two cases to SSA, and it has agreed to take appropriate corrective
action.

SMHI Did Not Adequately Monitor Conserved Funds

Under the SSI program, a recipient is limited to countable resources totaling $2,000 to
remain eligible for payments.11 If the resource limit is exceeded, the beneficiary is no
longer eligible for benefits.12 It is the representative payee’s duty to notify SSA if a
recipient’s resources exceed $2,000 at the beginning of any payment month.13

8
     20 C.F.R. §§ 404.2035 (April 2003) and 416.635 (April 2004); SSA, POMS, SI 02301.005.
9
    SSA, POMS, GN 00502.113.
10
  PUPS contains information about incarcerated beneficiaries that SSA receives from jails, prisons, other
penal institutions or correctional facilities, certain mental health facilities and various third parties.
11
     SSA, POMS, SI 01110.003.
12
     Id.
13
     SSA, POMS, GN 00502.113 and SI 01110.003.
Page 5 – Carl L. Rabun


SMHI did not adequately monitor SSI recipients’ conserved funds. Of the 50 cases we
sampled, 2 had conserved funds exceeding the $2,000 SSI resource limit. As a result,
SSA overpaid the two SSI beneficiaries $7,153. We referred these two cases to SSA,
and it has taken appropriate action.

SMHI Did Not Return Conserved Funds to SSA

A representative payee who has conserved or invested funds for a beneficiary, but is no
longer serving as representative payee for the beneficiary, is required to return the
funds to SSA for reissuance to either the successor representative payee or the
beneficiary in direct payment.14

Of the 50 cases we sampled, SMHI did not return to SSA $3,421 in conserved funds for
5 beneficiaries no longer in its care. Rather, SMHI paid the conserved funds directly to
four successor representative payees and to one beneficiary who SSA determined no
longer needed a representative payee.

CONCLUSION AND RECOMMENDATIONS

SMHI had significant internal control and accounting weaknesses, which prevented it
from fully meeting its responsibilities as a representative payee. Given the seriousness
of the conditions identified, we believe SMHI needs to improve several areas of its
representative payee program. We recommend that SSA:

1. Ensure SMHI establishes appropriate internal controls over benefit disbursements,
   including the maintenance of supporting documentation for beneficiary expenses.

2. Ensure payments issued to SMHI employees are in accordance with policies and
   procedures.

3. Ensure SMHI implements controls to monitor and report to SSA all changes in
   circumstances that affect the amount of benefits beneficiaries receive or the right of
   beneficiaries to receive benefits.

4. Ensure SMHI monitors beneficiaries’ accounts to ensure conserved funds do not
   exceed the $2,000 resource limit.

5. Require that SMHI implement controls over the transference of conserved funds for
   beneficiaries who are no longer in its care to SSA.

6. Compare and reconcile PUPS and the payment records for the 84 beneficiaries that
   have a record present on PUPS to ensure that payments to incarcerated
   beneficiaries were suspended.


14
     SSA, POMS, GN 00603.055.
Page 6 – Carl L. Rabun


AGENCY COMMENTS

SSA agreed with all of our recommendations. SSA stated it is committed to ensuring
SMHI properly uses and accounts for payments made on behalf of all the individuals for
whom SMHI serves as a representative payee.

In addition, SSA provided comments on the following recommendations.

  Recommendation 2 – SSA requested that we revise our estimate of payments
made to SMHI employees.

   Recommendation 4 – SSA agreed that SMHI was not properly monitoring SSI
beneficiaries’ conserved funds. SSA also requested that we revise the overpayment
amounts for the SSI recipients with conserved funds exceeding $2,000.

   Recommendation 5 – SSA commented that we should state that SMHI did not
maintain or misuse any of the conserved funds.

   Recommendation 6 – SSA agreed that SMHI was not properly reporting
incarcerations to SSA. SSA also noted it had detected most of these instances and
requested that we provide SSA the file with the 84 beneficiaries so it could take any
necessary actions.

See Appendix D for the full text of SSA’s comments.

REPRESENATIVE PAYEE COMMENTS

SMHI agreed with all of our recommendations. In addition, SMHI provided a suggested
estimate for the amount of payments issued to SMHI employees (Recommendation 2).

See Appendix E for the full text of SMHI’s comments.

OIG RESPONSE

We appreciate the comments from SSA and SMHI. We are also encouraged that SSA
is taking prompt action to address the deficiencies identified by our audit.

As a result of SSA’s and SMHI’s comments, we

• modified our report to clarify that five SMHI employees were issued payments,

• revised our estimate of payments issued to SMHI employees as proposed by SMHI,

• revised the overpayment amounts based on additional information SSA provided
  after we issued our draft report,
Page 7 – Carl L. Rabun


• noted that SSA took appropriate action when it learned that SMHI was not properly
  reporting incarcerations, and

• provided SSA the file of 84 beneficiaries with prisoner records.

We did not revise our report to state that SMHI did not misuse any of the conserved
funds. Given all of the deficiencies we identified with SMHI’s safeguards over the
disbursement of Social Security benefits, we did not conclude that there was no misuse
of beneficiary funds.

OTHER MATTERS

Theft of Beneficiary Funds

During our audit, we learned that SMHI’s bank accounts were compromised on two
occasions within a 6-month period. The two instances involved check fraud in the
amounts of $4,151 and $5,966, respectively. When SMHI learned of the fraud, it
promptly filed an affidavit with its bank in both cases. The bank subsequently
reimbursed SMHI for the stolen funds.

Given the theft of beneficiary funds and the potential the theft could have been
committed by an SMHI employee, we provided this information to OI for review. For
one of the instances of fraud, OI has identified a potential suspect who was not an
SMHI employee. OI is still investigating the other instance of check fraud.

SSA Did Not Provide All of the Representative Payee Accounting Report Forms

SSA is required to keep essential material that is integral to the claimant’s case and,
whether the result is favorable or unfavorable, SSA must retain the information in either
an electronic or paper environment for a specified period. 15 One method SSA uses to
monitor representative payees is the Representative Payee Report. This Report is
designed to assist SSA in determining (1) the use of benefits during the preceding
12-month reporting period, (2) the representative payee’s continuing suitability, and
(3) the continuing need for representative payment.16 Depending on the representative
payee’s responses, SSA may contact the representative payee to determine their
continued suitability. During our review, we found that SSA could not always obtain and
retrieve SMHI’s completed Representative Payee Reports.

As part of our audit, we planned to review a sample of completed Representative Payee
Reports to determine whether SMHI met its reporting responsibilities. We requested the
most recently completed Representative Payee Reports for 36 beneficiaries. We found
that SSA could not provide all of the reports we requested. Of the 36 we requested,

15
     SSA, POMS, TE 02005.005.
16
     SSA, POMS, GN 00605.066; GN 00605.067; GN 00605.090; GN 00605.221.
Page 8 – Carl L. Rabun


SSA could only provide 33; however, only 13 were for our audit period. Therefore, for
the remaining 23, we could not determine whether SMHI properly reported to SSA how
benefits were spent and invested.




                                              S
                                              Steven L. Schaeffer
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – Representative Payee Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
CFO     Chief Financial Officer

OASDI   Old-Age, Survivors and Disability Insurance

OI      Office of Investigations

OIG     Office of the Inspector General

POMS    Program Operations Manual System

PUPS    Prisoner Update Processing System

RPS     Representative Payee System

SMHI    Seattle Mental Health Institute

SSA     Social Security Administration

SSI     Supplemental Security Income
                                                                                        Appendix B

Background
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees to receive
and manage these beneficiaries’1 benefit payments.2 A representative payee may be
an individual or an organization. SSA selects representative payees for Old-Age,
Survivors and Disability Insurance (OASDI) beneficiaries or Supplemental Security
Income (SSI) recipients when representative payments would serve the individual’s
interests.

Representative payees are responsible for using benefits to serve the best interests of
the beneficiary or recipient. Their duties include

•     using benefits to meet the beneficiary’s current and foreseeable needs,

•     conserving and investing benefits not needed to meet the beneficiary’s current
      needs,

•     maintaining accounting records of how the benefits are received and used,

•     reporting events to SSA that may affect the beneficiary’s entitlement or benefit
      payments amount,

•     reporting any changes in circumstances that would affect their performance as a
      representative payee, and

•     providing SSA an annual Representative Payee Report accounting for how benefits
      were spent and invested.3




1
 We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and
SSI recipients.
2
    42 U.S.C §§ 405(j) and 1383(a)(2) (2001).
3
    Id.; 20 C.F.R. §§ 404.2001 et seq. (April 2003) and 416.601 et seq. (April 2004).
                                                                       Appendix C

Scope and Methodology
Our audit covered the period June 1, 2002 through May 31, 2003.

To accomplish our objectives, we:

•   Reviewed applicable Federal regulations, the Social Security Act, and SSA policies
    and procedures pertaining to representative payees.

•   Contacted SSA regional office and field office staffs to obtain background
    information about SMHI’s performance.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were in SMHI’s care as of May 31, 2003 or who left SMHI’s care after
    June 1, 2002.

•   Obtained from SMHI a list of individuals who were in its care and had received SSA
    funds as of May 31, 2003 or who left its care after June 1, 2002.

•   Compared and reconciled the RPS list to SMHI’s list to identify the population of
    SSA beneficiaries who were in SMHI’s care from June 1, 2002 to
    May 31, 2003.

•   Reviewed SMHI’s internal controls over the receipt and disbursement of OASDI
    benefits and SSI payments.

•   Performed the following tests for a sample of 50 beneficiaries and recipients:

    -   compared and reconciled benefit amounts received according to SMHI’s records
        to benefit amounts paid according to SSA’s records;

    -   reviewed SMHI’s accounting records to determine whether benefits were
        properly spent or conserved on the individual’s behalf; and

    -   selected a sample of 69 recorded expenses to trace to source documents to
        examine the underlying documentation for reasonableness and authenticity.

•   Interviewed a sample of 10 beneficiaries to determine whether their basic needs
    were being met.

•   Reviewed 13 Representative Payee Reports to determine whether SMHI properly
    reported to SSA how benefits were used.


                                           C-1
•   Reviewed five representative payee applications (Form SSA-11-BK) to evaluate the
    completeness and appropriateness of the information provided on the applications.

Given the lack of supporting documentation of beneficiary expenses and the ineffective
internal controls, we could not determine whether SMHI’s computer-processed data
were sufficiently reliable for our intended use. We performed our audit in Seattle,
Washington, and Richmond, California, between October 2003 and February 2004. We
conducted our audit in accordance with generally accepted government auditing
standards.




                                          C-2
                  Appendix D

Agency Comments
MEMORANDUM
Date:   September 14, 2004
From    Regional Commissioner
        Seattle
Subject: Seattle Mental Health Institute - An Organizational Representative Payee for
         the Social Security Administration (A-09-04-14015) (Your Memo Dated
         08/12/04) - SEATTLE REPLY
To:      Assistant Inspector General for Audit


Thank you for the opportunity to provide you with our feedback on the draft report of the
Office of the Inspector General's (OIG's) audit of the Seattle Mental Health Institute
(SMHI). The OIG audit identified a number of areas where SMHI has not met its
obligation with respect to its representative payee responsibilities. We have reviewed
the draft report and will respond to each of the recommendations proposed by OIG. I
assure you that we are committed to ensuring that SMHI properly uses and accounts for
payments made on behalf of all individuals that they serve as a representative payee.

Background
SMHI is a private, non-profit organization that provides a comprehensive array of mental
health and related services to persons with disabilities. Although originating in Seattle's
Capitol Hill neighborhood, located just east of downtown Seattle, SMHI in now a county-
wide provider with numerous branch locations in and around the city of Seattle.
SMHI serves over 11,000 individuals throughout King County, Washington.
SMHI is a unique agency. Unlike most organizations that focus on a specific clientele,
SMHI operates both a residential and an out-patient clinical program. While many
organizational payees focus solely on clients that require payee services, SMHI
provides payee services for only five percent of their total client base (approximately
574 beneficiaries/recipients). This means that SMHI has challenges unlike our other
payee organizations in creating and maintaining policies and an infrastructure that will
support what is only a small number of their clients. Although the payee workload for
SMHI is relatively small in relation to their overall mission, they serve a large number of
individuals in the metropolitan Seattle area who require payee services. Therefore,
SMHI is an integral part of our network of representative payees.
In response to the OIG draft audit report, two members of our regional management
team promptly completed an onsite review of SMHI. It was clear to our reviewers that
SMHI had been analyzing its accounting and disbursement practices and had already
initiated significant changes to address the problems raised in the OIG audit. Our
discussion of the recommendations from the audit report includes information that we
addressed with SMHI during our onsite review.


                                            D-1
Report Recommendations

Ensure SMHI establishes appropriate internal controls over benefit
disbursements, including the maintenance of supporting documentation for
beneficiary expenses.
We agree with the recommendation. During our onsite review, we discussed SMHI's
efforts to establish new control processes. SMHI has now begun using its electronic
client information system to ensure that it maintains better records of its activities as a
payee. They have taken steps to make certain that each individual they serve has a
monthly budget, and they are incorporating that budget information into their overall
client record. They have updated their processes for requesting disbursements,
including a process for requesting emergency and non-emergency disbursements.
Requests will be documented and a record maintained.
SMHI no longer relies on cancelled checks as proof of a disbursement. In most cases,
SMHI will require the individual to sign the check stub to acknowledge that the funds
were disbursed. Regular distributions (i.e., to utility companies) will still rely on the
cancelled check as proof of the expense.

Ensure payments issued to SMHI personnel are in accordance with policies and
procedures.
We agree with the recommendation and we would like to provide additional context.
The OIG audit determined that SMHI was unable to provide evidence that checks
issued to SMHI personnel were used for the benefit of the beneficiaries. We agree that
SMHI did not have strict control over this practice. As a result, in August 2004, SMHI
instituted a policy to prohibit the release of beneficiary funds directly to staff members.
However, we have concerns about OIG's audit results regarding the funds disbursed to
SMHI employees without sufficient documentation. All of the 31 improperly documented
checks referenced in the audit were written by a single employee.
In addition, OIG determined that the 31 improperly documented checks totaled $13,838
and then used that figure to extrapolate the potential universe of incorrectly issued
checks against the entire universe of SMHI clients. OIG did not take into consideration
that these checks involved only one employee and pertained exclusively to individuals
who were SMHI residential care clients. Since about 13 percent of SMHI's clients (75)
receive residential care service, we believe OIG should revise its estimate of improperly
written checks.




                                             D-2
Ensure SMHI implements controls to monitor and report to SSA all changes in
circumstances that affect the amount of benefits beneficiaries receive or the right
of beneficiaries to receive benefits.
We agree with the recommendation. The OIG audit provided information about SMHI's
failure to provide SSA with timely information about events that affect Title II and Title
XVI payments. OIG stated that SMHI staff did not understand their reporting
responsibilities. We spoke with SMHI’s Chief Financial Officer, about this issue.
SMHI’s Chief Financial Officer stated that because of staff turnover, some individuals
need additional training on the fundamentals of the Title II and Title XVI programs. To
address this concern, regional office staff will conduct a training session for fifty SMHI
employees, including the organization's accountants and chief financial officer. The
training is scheduled for October 1 and will cover fundamental eligibility and entitlement
issues for both the Title II and Title XVI programs. We will clearly restate and reiterate
the duties and responsibilities of a representative payee.
SMHI is also taking steps to update its client information system to automatically remind
its caseworkers to contact the Social Security Administration when certain events occur
(i.e., incarceration, hospitalization, and change in income or work status). We will
continue to monitor the effectiveness of this new system.

Ensure SMHI monitors beneficiaries' accounts to ensure conserved funds do not
exceed the $2,000 resource limit.
We agree with this recommendation and would like to provide additional context. We
suggest that the report use the phrase "funds held for individual." "Conserved funds" is
a term generally used in reference to funds held by one payee that are turned over to
SSA to be issued to a new payee.
The OIG audit found two instances of Title XVI recipients with more than $2000 in their
individual accounts. We agree with this finding, but disagree with the overpayment
amount computed by OIG. One individual was overpaid $4374. Collection of the
overpaid funds will begin through check adjustment in November 2004. The other
individual was not overpaid because he received Title II benefits that were subject to
windfall offset. Since his Title II benefits were already reduced because of the Title XVI
funds he received from January through April 2003, there is no overpayment. We
request that the report reflect the correct overpayment amount.

Require that SMHI implement controls over the transference of conserved funds
for beneficiaries who are no longer in its care to SSA.
We agree with the recommendation and would like to provide additional context. The
OIG audit identifies five situations where SMHI did not return conserved funds to SSA
when they were no longer representative payee. In each of these five instances, SMHI
returned the funds to the new payee or the beneficiary. While these actions were not
appropriate, it is clear that SMHI did not maintain any of the funds and did not misuse
any of the funds. Therefore, we request that the report reflect this information. As the



                                            D-3
result of the audit, SMHI has issued a reminder to its staff that all conserved funds
should be returned directly to SSA.
Compare and reconcile PUPS and the payment records for the 84 beneficiaries that have
a record present on PUPS to ensure that payments to incarcerated beneficiaries were
suspended.

We agree with this recommendation and would like to provide more context. We also
need additional information from OIG to implement this recommendation. While the
audit was pending, OIG agents referred nine potential prisoner cases to SSA for
possible corrective action. In eight of those cases, the Title XVI payment records
already reflected accurate information about the incarceration. The ninth case was not
properly annotated; the servicing office updated the record in June 2004. To date, we
have not been given a file with the 84 beneficiaries that are noted in this
recommendation. Once we receive the information, we will take immediate action to
review and, if necessary, update the records.

Concluding Comments
Regional office staff have developed an excellent working relationship with SMHI
management. In addition, Dennis Wulkan, Seattle's Assistant Regional Commissioner
for Management and Operations Support, recently had a candid and constructive
conversation with SMHI’s Chief Financial Officer to express the Region’s concern about
the audit findings and to offer the training and support necessary to ensure SMHI
complies with SSA’s representative payee requirements. SMHI’s Chief Financial Officer
expressed his personal assurance that SMHI is taking the OIG report very seriously and
has already begun improving their processes and the integrity of their payee program.
SMHI’s Chief Financial Officer also complimented Jill Barry of the regional office staff
and he told Mr. Wulkan that SMHI will take necessary corrective actions to ensure they
are in compliance with all representative payee responsibilities and obligations. We will
continue to work with SMHI both locally and regionally to ensure that the lines of
communication remain open.
We remain committed to ensuring that SMHI follows proper procedures as an
organizational payee. In addition to providing the training for SMHI staff in October,
Seattle management staff will conduct a follow up review with SMHI by February 15,
2005 to ensure that SMHI has appropriate controls in place, has followed through on its
new processes, and remains in compliance with the OIG recommendations.
Again, thank you for providing us with an opportunity to review the draft audit report. If
your staff have any questions, they may contact Jill Barry, RSI Programs and Systems
Team, by phone at 206-615-2120, by fax at 206-615-2643, or by email at
jill.barry@ssa.gov.


                                          /s/
                                      Carl L. Rabun


                                            D-4
                                Appendix E

Representative Payee Comments
September 7, 2004

Steven L Schaeffer
Assistant Inspector General for Audit
Office of the Inspector General
4 L 1 Operations Building
6401 Security Blvd.
Baltimore, Maryland 21235

Dear Mr. Schaeffer:

Seattle Mental Health Institute (SMHI) has reviewed the draft OIG audit report
completed on SMHI’s Representative Payee Services. SMHI provides this essential
service to more than 600 beneficiaries who are in active clinical care at SMHI. SMHI
understands that the audit identified processes and practices in SMHI’s representative
payee services that were not in full compliance with the requirements of the Social
Security Administration. While SMHI is not in full agreement with all of the points and
conclusions detailed in the audit, SMHI is in complete agreement that modified policies,
procedures and practices (per Social Security guidelines) will improve the
representative payee services at SMHI.

SMHI understands that the OIG audit results have generated recommendations to the
local Social Security office for their follow up with SMHI. It is SMHI’s intention to
actively and openly participate with the local Social Security office to successfully
resolve any and all concerns from the audit.

SMHI is firmly committed to improving its Representative Payee Services to maintain
complete compliance with all requirements of Social Security. SMHI has been actively
working with the local Social Security office to review SMHI’s plans, and has
implemented steps towards changing the representative payee service at SMHI. Based
on review thus far from the local Social Security office, SMHI believes that it has made
positive strides to improving its processes and will continue to work with Social Security
to assure full compliance with all requirements.

SMHI would like the opportunity to comment on one specific item in the audit. The audit
identified 31 checks for a total of $13,838 that had been written to SMHI personnel.
These checks included cases where funds were distributed to multiple beneficiaries in a
single check at SMHI’s residential programs. The audit extrapolated the total amount of
the checks to a potential error of $158,860 for SMHI’s 574 beneficiaries. However only
$3,489 of the $13,838 were written to the specific sampled beneficiaries tested in the
audit. The remaining amount was related to other individuals in residential care at
SMHI. The revised amount would extrapolate to a potential error of $40,053. SMHI is
not presenting this information as a counter to or argument against a justified concern in
the audit summary regarding checks to SMHI personnel. However, SMHI does believe
the modified extrapolation is a reasonable alternative to the audit summary.



                                           E-1
I appreciate having this opportunity to respond to the audit results. SMHI has a strong
commitment to maintaining full compliance with all system requirements related to the
services that the organization provides. SMHI has begun and will continue to use the
results of the audit in keeping with this commitment. If there are any questions
regarding this letter – I can be contacted at davids@smh.org or by phone at
206.302.2250.

Sincerely,


      /s/
David R. Stone, Ph.D.
Chief Executive Officer




                                           E-2
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

      James Klein, Director, San Francisco Audit Division, (510) 970-1739

      Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

      Nicole Kato Sullivan, Auditor-in-Charge

      Brennan Kraje, Statistician

      Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-09-04-14015.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
